No. 20-505

IN THE
SUPREME COURT OF THE UNITED STATES

SHLOMIT RUTTKAMP
Petitioner,
VS.

THE BANK OF NEW YORK MELLON, ET AL.
Respondent(s),

ON PETITION FOR A WRIT OF CERTIORARI FROM THE
SUPREME COURT OF CONNECTICUT

PETITION FOR REHEARING

PETITIONER
Pro se: Shlomit Ruttkamp
P.O.Box 611
Westbrook, CT 06498
Phone: (860) 853-8859
Email: rshlomit@vahoo.com
Executed on January 5, 2021

To the attention of Associate Justice Amy Coney Barrett
G

JAN 1 3 2021
!uPREMEFCOH|IrCtLmRcK

TABLE OF CONTENTS
PAGE NUMBER
TABLE OF CONTENTS

i

TABLE OF AUTHORITIES

iii

PETITION FOR REHEARING

1

GROUNDS FOR REHEARING

1

BACKGROUND

4

ARGUMENT

6

I.

II.

A judge’s ruling on a defendant’s motion to
dismiss a complaint “most accept as true all
of the factual allegations contained in the
complaint”................................................................

6

The right under the Fifth, and Fourteenth
Amendments to due process of law, and the
equal protection of the law, is important
question of federal law........................................

9

CONCLUSION

CERTIFICATE OF PETITIONER

13

14

TABLE OF CONTENTS - Continued
PAGE NUMBER
INDEX TO APPENDICES
Judge Morgan’s order (see Appendix A).....

passim

America's Wholesale Lender v. Pagano,
87 Conn.App. 474, 866 A.2d 698 (2005)
(See Appendix B).................................

3, 12

America's Wholesale Lender v. Silberstein,
87 Conn.App. 485, 866 A.2d 695 (2005).
(See Appendix C).........................................

3, 12

Isaac v. Mount Sinai Hospital, 3 Conn. App.
598, 602, 490 A.2d 1024, cert, denied, 196 Conn.
807, 494 A.2d 904 (1985) (See Exhibit-D).........

8, 11

ii

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Jacobson v. Comm'r, 915 F.2d 832, 837 (2d Cir.1990)

2

Newman v. Comm'r, 902 F.2d 159, 162 (2d Cir.1990)

2

Harrington v. Richter, 562 U.S. 86, 103 (2011).........

2

America's Wholesale Lender v. Pagano,
87 ConnApp. 474. 866 A.2d 698 (2005)......................

passim

America's Wholesale Lender v. Silberstein,
87 ConnAnn. 485. 866 A.2d 695 (2005).....

passim

Levinson v. Lawrence, 162 Conn. App.
548, 565-66, 133 A.3d 468 (2016)........

3, 4, 11

Wash. State Grange v. Wash. State Republican
Party, 552 U.S. 442, 455 (2008)...........................

3

Gonzales v. Carhart, 550 U.S. 124, 167 (2007)

3

JPMorgan Chase Bank Nat. Ass’n v. Simoulidis,
161 Conn. App. 133, 142, 126 A.3d 1098 (2015) ..

6

Ramos v. Vernon, 254 Conn.799, 808, 761
A.2d 705(2000)...............................................

6

Zapolsky v. SacksA 191 Conn. 194, 198, 464
A.2d 30 (1983)...................................................

6

David W., 254 Conn.676, 686, 759 A.2d 89 (2000)

6,7

Powers v. Olson, 252 Conn. 98, 105, 742 A.2d
799 (2000)....................... .......................................

7

Caruso v. Bridgeport, 285 Conn. 6.1.8, 627.
941 A.2d 266 (2008).....................................

7

iii

TABLE OF AUTHORITIES CITED, Continuance
PAGE NUMBER

CASES

Peters v. Dept, ofSocial Services, 273 Conn. 434. 441.
870 A.2d 448 (2005)..........................................................

7

Isaac v. Mount Sinai Hospital, 3 Conn.
App. 598, 602, 490 A.2d 1024, cert, denied,
196 Conn. 807, 494 A.2d 904 (1985)..........

8, 11

Hill v. Borough of Kutztown, 455 F.3d 225,
233-34 (3d Cir. 2006).......................................

9

Bd. of Regents v. Roth, 408 U.S. 564, 577 (1972)

10

Elmore v. Cleary, 399 F.3d 279, 282 (3d Cir. 2005)

10

City of Cleburne v. Cleburne Living Ctr.,
473 U.S. 432, 439 (1985)............................

10

Burgos v. Hopkins, 14 F.3d 787, 790 (2d Cir. 1994).....

10

Accord, Soto v. Walker, 44 F.3d 169, 173 (2d Cir. 1995)

10

Hayden v. Paterson, 594 F.3d 150, 161 (2d Cir. 2010) ..

11

Williams v. Taylor, 529 U.S. 362, 405- 406 (2000)

12

Shrader v. CSX Transp., Inc., 70 F.3d 255,
257 (2d Cir. 1995).........................................

12

Golden Hill Paugussett Tribe of Indians v. Southbury,
231 Conn. 563, 570-71, 651 A.2d 1246 (1995)...............

iv

13

TABLE OF AUTHORITIES CITED, Continuance
PAGE NUMBER

CASES
STATUTES AND RULES

Rule 44

1

Rule 44. 2

14

Rule 10(a)..................

1

Rule 10(b)..................

1

Rule 10(c)..................

1

Rule 11......................

2

28 U. S. C. § 2101(e)

2

28 U.S.C. § 2253(c)(2)......

4

General Statutes § 52-109

12

t

OTHERS

5tb Amendment of the U.S. Constitution

2

14th Amendment of the U.S. Constitution

2, 5

XIV, § 1...............

9

Article First, § 10

5

v

vv

No. 20-505

IN THE
SUPREME COURT OF THE UNITED STATES

SHLOMIT RUTTKAMP,
Petitioner
VS.

THE BANK OF NEW YORK MELLON, ET AL.
Respondents

I.

PETITION FOR REHEARING

Pursuant to Supreme Court Rule 44, Petitioner Shlomit
Ruttkamp respectfully petitions this Court and to the attention
of Associate Justice Amy Coney Barrett to reconsider its
December 14, 2020 decision denying petitioner Petition for a
Writ of Certiorari. This petition is filed within the 25 days of
the denial.

II.

GROUNDS FOR REHEARING

Petitioner seeks rehearing based on new reasons supported
by three amendments of the U.S. Constitution that presented
reasons that reinforce the review under the U.S. Supreme
Court Rule 10(a), (b), and (c), that:

1

(a) a United States court of appeals has entered a decision in
conflict with the decision of another United States court of
appeals on the same important matter; has decided an
important federal question in a way that conflicts with a
decision by a state court of last resort; or has so far departed
from, the accepted and usual course of judicial proceedings, or
sanctioned such a departure by a lower court, as to call for an
exercise of this Court's supervisory power.
(b) a state court of last resort has decided an important federal
question in a way that conflicts with the decision of another
state court of last resort or of a United States court of appeals.
(c) a state court or a United States court of appeals has decided
an important question of federal law that has not been, but
should be, settled by this Court, or has decided an important
federal question in a way that conflicts with relevant decisions
of this Court, “only for compelling reasons, [a], [b], and [c],
petition for a writ of certiorari will be granted, sanctioned such
a departure by a lower court [that] call for an exercise of this
Court’s supervisory power.” See Jacobson v. Comm'r, 915
F.2d 832, 837 (2d Cir.1990); Newman v. Comm'r, 902 F.2d
159, 162 (2d Cir.1990). A Federal Court may disturb the State
Court decision error lies by any possibility for fair-minded
disagreement. (See Harrington v. Richter, 562 U.S. 86, 103
(2011). United States Court of Appeal will review a case
pending a petition for a writ of certiorari under Rule 11 that a
petition for a writ of certiorari to review a case pending in a
United States court of appeals, before judgment is entered in
that court, will be granted only upon a showing that the case is
of such imperative public importance as to justify deviation
from normal appellate practice and to require immediate
determination in this Court. See 28 U. S. C. § 2101(e).
“This guarantee... is that all citizens shall be forever equal,
under the Fifth and Fourteenth Amendments of the U.S.
Constitution subject to like penalties for like crimes. It is to

2

secure to the citizens of each State all the privileges and
immunities of citizens of the United States.” Nor shall any
state deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the law.
Based on a lower court finding on February 27, 2012, the
foreclosure action was dismissed for lack of subject matter
jurisdiction by Judge Morgan’s order (see Appendix A). In
which it was held that a suit cannot be brought by or on behalf
of a trade name because a trade name "is not an entity with
legal capacity to sue.” (See America's Wholesale Lender v.
Pagano, 87 ConnApp. 474. 866 A.2d 698 (2005) (See
Appendix B) and America's Wholesale Lender v.
Silberstein, 87 Conn.App. 485. 866 A.2d 695 (2005). (See
Appendix C) The Plaintiff did not appeal the judgment within
the 20 days grace period upon which a party should appeal a
judgment. Regardless of the lower court’s finding, the Plaintiff
filed a motion to open judgment to open a case that the
Superior Court had no jurisdiction or authority to open, and
the law contained no four-month grace period for a dismissed
case that lacked subject matter jurisdiction. (See: Levinson v.
Lawrence, 162 Conn. App. 548, 565-66, 133 A.3d 468
(2016)). The filing of the petition demonstrates the exceptional
nationwide importance of the question presented here because
it was decided entirely on the pleadings. Connecticut courts
have expressed their reluctance to decide important
constitutional cases without a developed record or evidence.
(See, e.g., Wash. State Grange v. Wash. State Republican
Party, 552 U.S. 442, 455 (2008); Gonzales v. Carhart, 550
U.S. 124, 167 (2007)). But this court could consider the
question of importance of Petitioner Shlomit Ruttkamp validity
of the petition with a full evidentiary record by granting this
Petition. The Connecticut Courts of Appeal have entered a

3

decision in conflict with the decision of another Courts (see;
America's Wholesale Lender v. Pagano, 87 Conn. App.
474, 866 A.2d 698 (2005) and America's Wholesale Lender
v. Silberstein, 87 Conn. App. 485, 866 A.2d 695 (2005). The
United States court of appeals on the same important matter,
has decided an important federal question in a way that
conflicts with a decision by the state court of last resort. An
order of dismissal was entered on February 27, 2012 by Judge
Lisa Kelly Morgan, (see Appendix A), the United States Court
of appeals reiterates that a Petitioner need only to demonstrate
a substantial showing of the denial of a constitutional right, 28
U.S.C. § 2253(c)(2). The Petitioner satisfies this standard, and
the United States Court of Appeals are the nation of rule of law
and must exercise the constitutional right as the United States
Court of appeals are our final arbitrator and final line of
defense.

III.

BACKGROUND

This foreclosure procedure commenced on March 23,
2010 when the Plaintiff, The Bank of New York Mellon, filed
its first complaint under the trade name, The Bank of New
York Mellon, and not under the corporation’s registered name,
The Bank of New York Mellon Corporation. The foreclosure
was dismissed for lack of subject matter jurisdiction on
February 27, 2012 with a three-page memorandum of decision
(see docket entry no. 119.20 Appendix A). The Plaintiff did
not appeal Judge Morgan’s decision within the 20 days of court
ruling of dismissing the underlying suit although the law
contains no four-month grace period for a dismissed case that
lacks subject matter jurisdiction (see Levinson v. Lawrence.
162 Conn. App. 548, 565-66, 133 A.3d 468 (2016)). The
Plaintiff filed motion to open judgment claiming they have

4

made a mistake in the motion for summary judgment, and in
fact The Bank of New York Mellon is not a Delaware
corporation. Throughout ten years of litigation, the Plaintiff is
committing fraud, providing misleading information to the
court, and violating the rules of law and the books of law and
the oath upon which they swore to uphold, and the trial court
abuses its discretion for a favor of the Plaintiff, The Bank of
New York Mellon, and chooses to turn a blind eye to
overwhelming fraudulent exhibits and evidence provided to the
court by the Petitioner, Shlomit Ruttkamp. The Petitioner filed
numerous appeals and numerous certifications for review to
the Connecticut Supreme Court which unjustly, without regard
to the fraudulent evidence and exhibits, was denied and
dismissed. On the hearings of February 3, 2020, the Defendant
filed a motion to dismiss and provided an exhibit that was
provided to her by an anonymous member of the law group,
McCalla Raymer Leibert Pierce, LLC to prove that this
litigation from the beginning was commenced by the Plaintiff
based upon a lie and fraudulent litigation. The vesting of the
title of the property was unjustly granted to the Plaintiff as
they are not the rightful owners of such a title. And the motion
to dismiss should never have been denied considering the
evidence provided to support the Plaintiff s lack of standards
and the court’s lack of subject matter jurisdiction. And the
Appellate Court should not have deprived the Appellant of her
Due Process Clause of the Connecticut Constitution Article
First, § 10 and the 14th Amendment to the United States
Constitution, to aggrieve the judge’s rulings and to have the
record straight that the law date has passed on January 8,
2020 when the Appellate Court dismissed petition for
certification for review to the Connecticut Supreme Court filed
by the Appellant on December 27, 2019 and was dismissed only
on January 8, 2020, two days after the January 6, 2020 law
date; therefore, the law date was invalid and the appeal filed

5

on February 27, 2020 should not have been dismissed. The
United States court of appeals on the same important matter,
has decided an important federal question in a way that
conflicts with a decision by the state court of last resort. And
the petition for writ of certiorari in docket entry number 20-505
should be granted for the purpose of important question of
federal law. The United States court of appeals has decided an
important question of federal law that has not been, but should
be, settled by this Court. The Plaintiff, using an
unincorporated trade name to foreclose a mortgage on the
Defendant’s real property, does not have the legal capacity to
sue.
ARGUMENT
I.

A judge’s ruling on a defendant’s motion to
dismiss a complaint “must accept as true all
of the factual allegations contained in the
complaint.”

A judge’s ruling on a defendant’s motion to dismiss a
complaint “must accept as true all of the factual allegations
contained in the complaint.” The determination of whether the
court has subject matter jurisdiction raises a question of law.
Accordingly, the standard of review is plenary. JPMorgan
Chase Bank Nat. Ass’n v. Simoulidis. 161 Conn. App. 133,
142, 126 A.3d 1098 (2015). See also Ramos v. Vernon, 254
Conn.799, 808, 761 A.2d 705(2000). And a “controversy”
question for the trier of fact. (Citations omitted; Internal
quotation marks omitted.) Zanolskv v. Sacks. 191 Conn.
194, 198, 464 A.2d 30 (1983) Thus, “[w]here the legal
conclusions of the court are challenged, the court must
determine whether they are legally and logically correct”;
(Internal quotation marks omitted) in re David W., 254

6

Conn.676, 686, 759 A.2d 89 (2000); and whether they “find
support in the fact that appear in the record.” (Internal
quotation marks omitted.) Powers v. Olson, 252 Conn. 98,
105, 742 A.2d 799 (2000). A motion to dismiss . . . properly
attacks the jurisdiction of the court, essentially asserting that
the plaintiff cannot as a matter of law and fact state a cause of
action that should be heard by the court... A motion to
dismiss tests, inter alia, whether, on the face of the record, the
court is without jurisdiction." (Internal quotation marks
omitted.) Caruso v. Bridgeport, 285 Conn. 618. 627. 941
A.2d 266 (2008). "The subject matter jurisdiction requirement
may not be waived by any party, and also may be raised by a
party, or by the court sue sponte, at any stage of the
proceedings, including on appeal." (Citations omitted.) Peters
v. Dept, of Social Services, 273 Conn. 434. 441. 870 A.2d
448 (2005), the Petitioner Shlomit Ruttkamp is the title holder
of record. And the dispositive issue is whether a corporation
that brings an action solely in its trade name, without the
corporation being named as a party, has standing to confer
jurisdiction on the court. This court concluded in America’s
Wholesale Lender v. Pagano and America's Wholesale
Lender v. Silberstein, that because a trade name is not an
entity with legal capacity to sue, the corporation has no
standing to litigate the merits of the case. On February 27,
2012, the foreclosure action was dismissed for lack of subject
matter jurisdiction with a three-page memorandum of decision
(see docket entry no. 119.10 Exhibit-A). The court concluded
like in America’s Wholesale Lender v. Pagano and
America's Wholesale Lender v. Silberstein that, because
the Plaintiff, The Bank of New York Mellon, brought the action
under a trade name, which is a fictitious name, the Plaintiff
lacked standing to bring the action and the court lacked subject
matter jurisdiction to decide the merits of the Plaintiffs, The
Bank of New York Mellon, claim. This case is controlled by the

7

decision in America’s Wholesale Lender v. Pagano. 87
Conn. App. 474, 477-78, 866 A.2d 698 (2005) and America's
Wholesale Lender v. Silberstein, 87 Conn.App. 485. 866
A.2d 695 (2005) in which the court held that the court lacked
subject matter jurisdiction because the Plaintiff had
commenced an action solely in its trade name. The decision in
that case rested primarily on the mandate that parties do not
use fictitious names. No such person commenced the action in
this case, as a trade name is not a recognized legal entity or
person, regardless of the entity to which the trade name
applies because a trade name is not an entity with a legal
capacity to sue. Nor could the Plaintiff, The Bank of New York
Mellon, cure the jurisdictional defect by substituting a party
with the legal capacity to sue on behalf of the trade name. The
named Plaintiff in the original complaint never existed. As a
result, there was no legally recognized entity for which there
could be a substitute. (See: Isaac v. Mount Sinai Hospital, 3
Conn. App. 598, 602, 490 A.2d 1024, cert, denied, 196
Conn. 807, 494 A.2d 904 (1985) (See Exhibit-D). Because the
Plaintiff, The Bank of New York Mellon had no standing to
bring an action, (see docket entry no. 119.10 Exhibit-A), no
action in this case ever was commenced, as it was void ab
initio. The trial court and the Appellate and Supreme Courts
ignored paragraph 1 of the Plaintiffs own foreclosure
complaints which it alleges in paragraph 1 of its complaint that
Paragraph 1:
“Plaintiff, The Bank of New York Mellon f/k/a The Bank of
New York as Trustee on behalf of CIT Mortgage Loan Trust
2007-1. (hereinafter “Plaintiff’), is a corporation duly
authorized and validly existing under the laws of the
State of Delaware / New York State (Emphasis added.)
Based on the Plaintiff s own complaints as pleaded by
the Plaintiff, neither the court nor the parties made mistakes

8

in analyzing the registered name of the corporation. Based on
the allegations of the Plaintiffs foreclosure complaints, the
parties and the court conclude that the Plaintiff, The Bank of
New York Mellon, brought these complaints and this litigation
under a trade name and not the corporation’s registered name.
Contrary to the Plaintiffs assertions, the court’s February 27,
2012 order of dismissal, was not premised upon incorrect
information that was mistakenly conveyed to the court, and it
was accordingly a no-good cause reason to open the judgment.

II.

The right under the Fifth, and Fourteenth
Amendments to due process of law, and the
equal protection of the law, is important
question of federal law.

A clause of the Fifth and Fourteenth Amendments to the
United States Constitution means a state’s laws must treat
any person in its jurisdiction the same way it would treat other
people in similar circumstances, preventing the passing or
enforcement of discriminatory laws. A party has the right
under the Fifth and Fourteenth Amendments to due process
of law and equal protection of the law to challenge an order
by which the Defendant is aggrieved, and the court has the
obligation to provide fair and honest procedures that will
comply with the book of law and the rules of law when
[there] is an actual controversy between or among the
parties to the dispute. The Fourteenth Amendment doctrine
of procedural due process prevents the government from
depriving an individual of liberty or property interests
without due process of law. U.S. Const., Amend. XIV, § 1.
The Petitioner Shlomit Ruttkamp was deprived of her
liberty and property interest. (Hill v. Borough of
Kutztown, 455 F.3d 225, 233-34 (3d Cir. 2006)) As you
see in the Petition for Writ of Certiorari filed in case no. 20-

9

505 Appendix I page 32, a quit-claim deed transfer to the
Petitioner Shlomit Ruttkamp as the sole owner of the
property. By denying the Petitioner Petition for Writ of
Certiorari is denying due process of law and equal
protection of law as the Petitioner demonstrated ownership
of the property in the custody of the Connecticut Courts of
Appeal. And the deprivation of her right failed to comport
with the requirements of due process. A protected property
exists as the Petitioner has “a legitimate claim of
entitlement” to said property. Bd. of Regents v. Roth, 408
U.S. 564, 577 (1972); Elmore v. Cleary, 399 F.3d 279,
282 (3d Cir. 2005) The Equal Protection Clause
Amendment directs that all individuals similarly situated
be treated alike. City of Cleburne v. Cleburne Living
Ctr., 473 U.S. 432, 439 (1985). The Petitioner is
discriminated against as she is an Israeli woman who tries
to litigation subject matter jurisdiction where a party is
proceeding pro se, the court must read her supporting papers
liberally and interpret them to raise the strongest arguments
that as pro se suggest. Burgos v. Hopkins, 14 F.3d 787, 790
(2d Cir. 1994), See also Accord, Soto v. Walker, 44 F.3d
169, 173 (2d Cir. 1995)), as the Plaintiff filed the complaints
under a fictitious name, trade name of the corporation. The
plaintiff lacked standing to bring the action and the court
lacked subject matter jurisdiction to decide the merits of the
plaintiffs claim. Other similar cited cases were dismissed as
the Plaintiff did not have standards and therefore, the court
lacked subject matter jurisdiction to hear the case but
because the Petitioner Shlomit Ruttkamp is a pro se, the
Connecticut courts of appeal did not apply the law when it
comes to the motions and exhibits filed by the Petitioner as a
pro se and ignoring subject matter jurisdiction. Based on
lower court finding on February 27, 2012, the foreclosure
action was dismissed for lack of subject matter jurisdiction.

10

The Bank of New York Mellon is merely a name to describe the
name of the corporation doing business as The Bank of New
York Mellon Corporation. (See America’s Wholesale Lender
v. Pagano, 87 Conn. App. 474, 866 A.2d 698 (2005), And
America’s Wholesale Lender v. Silberstein, 87 Conn.
App. 485, 866 A.2d 695 (2005). CIT Mortgage Loan Trust
2007-1 is a fraudulent entity that does not exist anywhere; it is
not a bank. It is not registered in the New York State
Department of Services nor in Connecticut Secretary of State
or any place in the United States. (See Isaac v. Mount Sinai
Hospital, 3 Conn. App. 598, 490 A.2d 1024, cert, denied,
196 Conn. 807, 494 A.2d 904 (1985) (see Appendix D). The
Plaintiff did not appeal the judgment within the 20 days grace
period upon which a party should appeal a judgment. The
Plaintiff filed a motion to open judgment to open a case that
the Superior Court had no jurisdiction or authority to open,
and the law contained no four-month grace period for a
dismissed case that lacked subject matter jurisdiction. (See:
Levinson v. Lawrence, 162 Conn. App. 548, 565-66, 133
A.3d 468 (2016)) Petitioner, Shlomit Ruttkamp, should have
the right under the Fifth and Fourteenth Amendments to due
process of law and the equal protection of the law to appeal
and to challenge the order of Judge Morgan to open a judgment
that she dismissed for lack of subject matter jurisdiction. The
court must evaluate the sufficiency of the claim. Hayden v.
Paterson, 594 F.3d 150, 161 (2d Cir. 2010) A case with
misleading information and fraudulent affidavits in filing
foreclosure procedures is not entitled to the assumptions of
truth, and Petitioner, Shlomit Ruttkamp is the sole owner of
this property. The court habeas claim has been adjudicated by
the state courts. This case involved an unreasonable
application that clearly established federal law as determined
by the Supreme Court of the United States, as the State Court
arrived at a decision opposite to the one reached by the

11

Supreme Court of the United States on a question of law, and
the state court decided a case differently than did the Supreme
Court on a set of materially indistinguishable facts. Williams
v. Taylor, 529 U.S. 362, 405- 406 (2000). This petition for
rehearing should be granted as the moving party points out
that it is an important matter that will decide important
federal questions upon which the courts of appeal conflict with
other similar decisions and reasonably be expected to alter the
conclusion raised by the court. (See Shrader v. CSX Transp.,
Inc., 70 F.3d 255, 257 (2d Cir. 1995) This case lacks subject
matter jurisdiction and the Plaintiff, The Bank of New York
Mellon, had no standing to bring an action, no action in this
case ever was commenced from the dismissal of February 27,
2012 for lacks subject matter jurisdiction. (See: America’s
Wholesale Lender v. Pagano. 87 Conn. App. 474, 477-78,
866 A.2d 698 (2005) (see Appendix B) and (See: America's
Wholesale Lender v. Silberstein, 87 Conn.App. 485. 866
A.2d 695 (2005) (see Appendix C). The Plaintiff, using an
unincorporated trade name to foreclose a mortgage on the
Defendant’s real property do not have the legal capacity to sue.
Thereafter, the trial court’s rendering of judgment of
foreclosure and denial of the motion to dismiss was improper.
Furthermore, the claim by the Plaintiff, The Bank of New York
Mellon, was unavailing because the Plaintiff, The Bank of New
York Mellon’s, lack of standing rendered the initial action void
ad initio. The Plaintiff, The Bank of New York Mellon,
commenced an action in the name of the wrong person and did
not requested from the court to file a motion to be substituted
as the Plaintiff to reflect an assignment of the note and
mortgage pursuant to General Statutes § 52-109. The court
ultimately rendered all judgment in favor of the Plaintiff, The
Bank of New York Mellon, which lacked subject matter
jurisdiction to decide the merits of the Plaintiffs, The Bank of
New York Mellon, claim. And the Plaintiff could not cure this

12

jurisdictional defect as it was void ab initio. (See: Golden Hill
Paugussett Tribe of Indians v. Southbury, 231 Conn. 563,
570-71, 651 A.2d 1246 (1995).

CONCLUSION
For the reasons set forth above, as well as those
contained in the petition for writ of certiorari, Petitioner
respectfully requests that this Court grant Petitioner’s request
for rehearing and vacate the order denying writ of certiorari in
this case to determine the constitutional right to petition the
government for a redress of grievances.
RESPE CTFULILY SW^MITTEBTETITIONER
Pro se:

s: it Ruttka:
P.O.Box 611
Westbrook, CT 06498
Phone: (860) 853-8859
Email: rshlomit@vahoo.com

Executed on January 5, 2021

To the attention of Associate Justice Amy Coney Barrett

13

CERTIFICATE OF PETITIONER
SALF-REPRESENTED
I hereby certify that this petition for rehearing is restricted
to the grounds specified in Supreme Court Rule 44. 2, is
presented in good faith, in the interest of justice and not for
delay.

Executed on this 5th day of January

RESPECTFULLY Si

TTE

1.

TITIONER

V
Pro se: Shlomrrttuttkamp
P.O. Box 611
Westbrook, CT 06498
Phone: (860) 853-8859
Email: rshlomit@vahoo.com

Executed on January 5, 2021

14

Additional material
from this filing is
available in the
Clerk's Office.

d

